   DEPARTMENT OF HOMELAND SECURITY

                    Office of Inspector General



              The Transportation Security 

          Administration’s Management of its 

         Federal Employees’ Compensation Act 

                       Program 





 Notice: This report remains the property of the DHS Office of the Inspector General (DHS OIG) at all times and,
 as such, is not to be publicly disclosed without the express permission of the DHS OIG. Requests for copies of
 this report should be forwarded to the DHS Office of Counsel to the Inspector General to ensure compliance with
 all applicable disclosure laws.




OIG-07-45                                                                     May 2007
                                                                                Office of Inspector General

                                                                                U.S. Department of Homeland Security
                                                                                Washington, DC 20528




                                       May 25, 2007

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

This report addresses the Transportation Security Administration’s management of its Federal
Employees’ Compensation Act program. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 





                           Transportation Security Administration’s Management of its 

                                Federal Employees’ Compensation Act Program 

Table of Contents/Abbreviations

Executive Summary ............................................................................................................................... 1 


     Background ...................................................................................................................................... 2 


     Results of Audit ............................................................................................................................... 6 


          TSA Can Improve Management of Its Long-Term FECA Cases.............................................. 7 

            Recommendations.............................................................................................................. 16 

            Management Comments and OIG Analysis ...................................................................... 18 


          TSA Needs to Monitor the Accuracy of Agency Chargeback Bills ........................................ 21 

            Recommendations.............................................................................................................. 24 

            Management Comments and OIG Analysis ...................................................................... 24 


          TSA Can Better Link Its Safety and Health and FECA Programs .......................................... 25 

            Recommendations.............................................................................................................. 28 

            Management Comments and OIG Analysis ...................................................................... 29 


Appendices
     Appendix A:                 Purpose, Scope, and Methodology................................................................... 31 

     Appendix B:                 Flowchart of TSA’s FECA Claim and Case Management Process................. 33 

     Appendix C:                 Management Comments to the Draft Report ................................................... 35 

     Appendix D:                 Major Contributors to this Report.................................................................... 42 

     Appendix E:                 Report Distribution .......................................................................................... 43 


Abbreviations
     DHS                         Department of Homeland Security 

     DOL                         Department of Labor 

     FECA                        Federal Employees’ Compensation Act 

     FSD                         Federal Security Director 

     FY                          Fiscal Year                 

     OHC                         Office of Human Capital 

     OIG                         Office of Inspector General 

     SHARE                       Safety, Health, and Return to Employment (SHARE) initiative 

     TSA                         Transportation Security Administration          

     FAMS                        Federal Air Marshal Service 





                                       Transportation Security Administration’s Management of its 

                                            Federal Employees’ Compensation Act Program 

                                                                                     Audit
OIG
Department of Homeland Security
                                                                                     Report
Office of Inspector General

Executive Summary
                The physical activity required to screen passengers and baggage at the Nation’s
                airports has resulted in an inordinate number of injuries for Transportation
                Security Administration screeners. The annual costs for injured agency
                screeners increased from $39 million to $66 million between fiscal years 2004
                and 2006. Furthermore, the estimated future liability to the agency based on
                currently approved Federal Employees’ Compensation Act cases in fiscal year
                2006 was estimated to be approximately $600 million. The objective of our
                audit was to determine whether the agency is effectively managing its Federal
                Employees’ Compensation Act program to minimize lost workdays and
                compensation costs, and is taking aggressive steps to reduce workplace injuries.

                The Transportation Security Administration made substantial progress during
                fiscal year 2006. The agency has improved the timeliness of new injury claims,
                and reduced both the number of workers’ compensation claims and lost time
                associated with workplace injuries. Despite these improvements, the agency’s
                workers’ compensation costs continue to rise and the agency still has the highest
                injury rate in the federal government.

                The Transportation Security Administration must take steps to better manage its
                workers’ compensation caseload. We identified claimants who were receiving
                long-term compensation for up to three years despite the fact that medical
                evidence indicated work capability. We also identified claimants who were not
                offered limited duty when capable and, when permanent restrictions existed, not
                recommended for vocational rehabilitation in a timely manner. As a result, the
                agency may be paying benefits to individuals who are not entitled to them, and
                may be at risk for workers’ compensation fraud and abuse. In addition, the
                agency does not have a process to validate its workers’ compensation
                chargeback reports. According to personnel at one airport that reviewed the
                report for the first time, seven employees were found to be receiving workers’
                compensation who had either returned to full duty or had been terminated for
                cause, yet had received more than $95,000 in compensation during fiscal year
                2006. Without reviewing its chargeback reports the agency is unable to
                determine whether the Department of Labor is accurately billing the agency and
                is likely incurring inappropriate or excessive costs at other airports nationwide.


                      Transportation Security Administration’s Management of its 

                           Federal Employees’ Compensation Act Program 


                                                Page 1
        We are making twelve recommendations to the Assistant Secretary of the
        Transportation Security Administration to strengthen the controls over its
        Federal Employees’ Compensation Act program. While TSA generally
        concurred with all recommendations in the report and finds these
        recommendations helpful, TSA did not concur with the OIG conclusion that the
        agency is not aggressively and effectively managing long-term FECA cases.
        TSA cited steps that the agency has taken since completion of our fieldwork,
        and steps it plans to take, in order to address our concerns about FECA case
        management. Based on actions taken, we have closed two, consider nine open
        pending planned corrective action, and consider one unresolved and open. The
        Assistant Secretary’s comments to our report dated May 1, 2007, are
        incorporated into the body of this report, as appropriate, and are included in their
        entirety in Appendix C.

Background
        The Federal Employees’ Compensation Act (FECA) (5 U.S.C. § 8101, et seq.)
        provides wage loss compensation, medical care, and survivors’ benefits to
        3 million federal and postal workers around the world for employment-related
        traumatic injuries and occupational diseases. Traumatic injuries are wounds or
        other conditions caused by an external force, stress, or strain within a single day
        or work shift. An employee spraining their ankle at work would be an example
        of a traumatic injury. An occupational disease is a physical condition produced
        by the work environment over a longer period. Developing carpal tunnel
        syndrome would be an example of an occupational disease. FECA also provides
        for payment of benefits to dependents if a work-related injury or disease causes
        an employee’s death.

        Department of Labor

        The FECA program is administered by the Office of Workers' Compensation
        Programs, located within the U.S. Department of Labor (DOL). All workers’
        compensation claims are adjudicated by DOL. For DOL to determine workers’
        compensation eligibility, the injured employee must provide medical and factual
        evidence to establish five basic elements:

             • 	 The claim was filed within the time limits set by FECA;
             • 	 The injured or deceased person was an employee of the U.S.
                 government at the time of injury;
             • 	 The injury, disease, or death did occur;
             • 	 The employee was in the performance of duty when the injury, disease,
                 or death occurred; and


               Transportation Security Administration’s Management of its 

                    Federal Employees’ Compensation Act Program 


                                         Page 2
    • 	 The medical condition found was causally related to the claimed injury,
        disease, or death.

Under FECA, federal agencies are responsible for advising employees of their
FECA rights and responsibilities, completing and submitting claim forms to
DOL in a timely manner, and continuing to pay injured employees who have
experienced traumatic injuries. To avoid disruption of an employee’s income,
the employing agency is responsible for continuing the employee’s pay for up to
45 days while the employee is recovering from their injury. Employing
agencies are also responsible for many aspects of case management such as
initiating FECA claims, assisting employees in returning to work, challenging
questionable claims, keeping in contact with the injured employee, managing
compensation costs, and accommodating “light duty” work when able.

DOL classifies FECA claims as either short-term or long-term. In short-term
cases, an employee is injured, recovers, and generally returns to work within
60 days. During any periods of resulting disability, FECA provides that the
employer must continue the employee's regular pay, up to a maximum of
45 calendar days. This is called continuation of pay and the employer, not DOL,
pays these costs. For a traumatic injury, compensation is payable after the
45 days of continuation of pay have ended and three waiting days have elapsed.
This payment is made on the “daily roll” for a finite period supported by
medical evidence. Claimants are advised that they will receive compensation
only through the specified date without submission of another claim. If an
employee’s disability lasts more than 60 days, DOL may designate the claim as
a long-term case and place it on DOL’s “periodic rolls.” DOL will pay benefits
automatically every 28 days and charge back to the agency annually.

The federal government, under FECA, is self-insured. FECA benefits are
financed by the Employees’ Compensation Fund, which is replenished annually
through a chargeback to employing agencies. DOL furnishes agencies with a
chargeback report that is a statement of payments made from the Employees’
Compensation Fund on account of injuries to each agency’s employees. The
agency should review the report to ensure that the billing is correct.

The cost of federal workplace injuries, when measured by workers’
compensation losses, is more than $2 billion and 2 million lost production days
annually. In fiscal year (FY) 2006, the federal workforce of almost 2.7 million
people filed more than 119,000 injury claims.

Government-wide FECA Initiatives

In 2004, the President initiated the “Safety, Health, and Return-to-Employment
(SHARE)” program that directed federal agencies to establish goals and track

      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                                Page 3
                          performance to lower workplace injury and illness case rates, lower lost-time
                          injury and illness case rates, timely reporting of injuries and illnesses, and
                          reduce lost days resulting from work injuries and illnesses. The Transportation
                          Security Administration (TSA) met its SHARE goals relating to reducing total
                          workplace injury cases and lost-time injury cases during FY 2006.

                          FECA program management remains a government-wide concern of many
                          Offices of Inspectors General. In 1996, under leadership provided by the
                          President’s Council on Integrity and Efficiency,1 the Council issued a
                          consolidated report on FECA, which summarized the results of audits conducted
                          by 13 participating Inspectors General regarding their agencies’ effectiveness in
                          managing workers’ compensation programs. More recently, in March 2006, the
                          Council hosted a symposium for Inspectors General and drafted protocols for
                          inspections, evaluations, and investigations of FECA programs
                          government-wide to provide a more coordinated approach for conducting
                          FECA-related work. This audit is being conducted as part of the renewed
                          emphasis and coordinated approach by the Council.

                          Transportation Security Administration

                          Within TSA, the Office of Human Capital (OHC) and the more than 450 airports
                          share responsibility for managing the agency’s FECA program. According to
                          OHC personnel, which is headquarters based, the office provides guidance and
                          clarification throughout TSA on FECA regulations and procedures. Also, OHC
                          personnel, as part of a TSA airport review team, assess workers’ compensation
                          programs at the airports to identify deficiencies that need to be addressed
                          through guidance and training. According to OHC personnel, Federal Security
                          Directors (FSDs) are responsible for processing FECA claims, providing limited
                          duty where appropriate, ensuring claimants promptly return to work when able,
                          and implementing a safety and health program at their airport.

                          In FY 2006, TSA reported the following improvements in administering its
                          FECA program:

                          • 	 Increased timeliness in submitting claim forms from 66% in FY 2004 to
                              94% in the third quarter of FY 2006.
                          • 	 Decreased claims filed with DOL 48%, from 17,763 in FY 2004 to 9,255 in
                              FY 2006.
                          • 	 Decreased lost time cases 37%, from 7,276 in FY 2004 to 4,550 in FY 2006.


1
  The PCIE was established by Executive Order 12301, March 26, 1981, 46 FR 19211 to coordinate and implement
government policies with respect to integrity and efficiency in federal programs. The Council is primarily composed of the
Presidentially-appointed Inspectors General.

                                  Transportation Security Administration’s Management of its 

                                       Federal Employees’ Compensation Act Program 


                                                            Page 4
• 	 Decreased continuation of pay hours between FY 2004 and FY 2006, from
    735,742 to 312,176 hours or 58%, and decreased costs from $11 million to
    $5 million or 55%.

TSA terminated its contractor from processing FECA claims in September 2004
due to concerns about the contractor’s performance and because, at the time,
only 20% of all new injury claims were being filed timely.

The agency has made several improvements in its operations:

   • 	 Installed a web-based, DOL electronic claims filing system;
   • 	 Distributed a Workers Compensation Desk Guide to TSA airport 

       personnel in September 2005; 

   • 	 Awarded a Nurse Case Management Program contract to provide case
       management services to ensure appropriate medical treatment is being
       provided to claimants;
   • 	 Eliminated reporting of minor injuries with no lost time or medical costs
       to DOL; and
   • 	 Installed automated in-line baggage handling systems at some larger
       airports that require less employee-lifting, thus reducing the prevalence
       of back injuries. Back injuries (20%) followed by hand/finger injuries
       (15%) were the most common injuries reported by TSA in FY 2006.

However, despite these improvements, agency annual compensation costs have
increased from $39 million in FY 2004 to $66 million in FY 2006 because the
number of TSA employees on DOL's periodic rolls has increased from 445 in
June 2004 to 979 in June 2006. More importantly, the actuarial projection for
future costs related to the approved cases in FY 2006 was estimated to be
approximately $600 million, or 40% of $1.5 billion in actuarial liability, as
reported in the Department of Homeland Security’s FY 2006 Financial
Statements. These are unfunded costs that will need to be financed by future
TSA budgets.

Executive Order 12196 and the Occupational Safety and Health Act of 1970
(Public Law 91-596) require agencies to provide a safe and healthful workplace
for its employees. Within TSA, the Office of Occupational Safety, Health, and
Environment is responsible for overseeing the establishment and maintenance of
a comprehensive occupational safety and health program. At the airports, FSDs
are responsible for planning, implementing, and evaluating a local occupational
safety and health program.

Congress and the media have criticized TSA for the agency’s disproportionately
high injury claims, primarily in its screener workforce. In a September 27,
2005, USA Today article titled “TSA screeners’ injury claims to be screened,”

      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                                Page 5
               the media reported that TSA had an injury rate four times as high as construction
               workers and seven times as high as miners, and that screeners missed nearly a
               quarter-million work days. In the same article, a TSA spokeswoman stated that
               reducing worker injuries was the Assistant Secretary’s “No. 1 priority.” The
               Congressional Subcommittee on Economic Security, Infrastructure Protection,
               and Cybersecurity, which has oversight responsibility for TSA, also expressed
               concern about TSA injuries and management of its workers’ compensation
               program. Although the rate of TSA screeners injured on the job fell in FY 2006
               to 16% from 29% the previous year, TSA continues to have the highest injury
               rate in the federal government. The rest of the federal workforce had a projected
               4.47% injury rate for FY 2006.

               The overall objective of the audit was to determine whether TSA is effectively
               and aggressively managing its FECA program to minimize lost workdays and
               FECA-related compensation costs by returning work-capable employees to work
               as soon as possible, and reducing workplace injuries. More specific information
               on our objectives, scope, and methodology can be found in Appendix A.

Results of Audit
               Despite improvements in timeliness and a reduction in the number of new
               claims filed by injured workers, TSA is not aggressively and effectively
               managing long-term FECA cases in order to return work-capable employees to
               work as soon as medically possible. In addition, the agency does not have a
               process to validate its workers’ compensation chargeback reports, putting the
               agency at risk of improperly paying compensation and medical costs.

               As a result, TSA may be paying benefits to individuals who are not entitled to
               them, may not be returning injured employees back to work in the most
               expeditious time-frame possible, and may be at risk for significant workers’
               compensation-related fraud and abuse. If TSA does not provide more effective
               FECA program management, the agency may continue to experience escalating
               FECA-related costs, and high injury rates may affect the ability of airports to
               deploy an adequate number of screeners, which can slow passenger processing
               at airport screening checkpoints.

               In addition, while TSA has also made progress in establishing a safety and
               health program that addresses workplace conditions that contribute to employee
               injuries, the agency may still be missing opportunities to reduce FECA-related
               costs by implementing measures that reduce common injuries at airports
               nationwide.




                     Transportation Security Administration’s Management of its 

                          Federal Employees’ Compensation Act Program 


                                               Page 6
TSA Can Improve Management of Its Long-Term FECA Cases

          TSA is not aggressively and effectively managing long-term FECA cases at
          TSA Headquarters or its airports in order to return work-capable employees to
          work as soon as medically possible. Our review of 116 long-term FECA cases
          disclosed problems with oversight in 80% or 93 of 116 cases. Some cases had
          more than one deficiency.

          Effective and aggressive case management is critical for an agency to meet
          injured employee needs, return work-capable employees to suitable positions as
          soon as possible, ensure compliance with FECA rules and requirements, and
          reduce costs. Although DOL has primary responsibility for long-term case
          management, the benefits that an injured employee is entitled to receive are paid
          by the employing agency. DOL encourages agencies to develop comprehensive
          plans for managing their FECA program that, among other things, should
          include:

          • 	 Sufficient training to staff that routinely handle compensation claims;
          • 	 An organized record-keeping system related to each compensation claim;
          • 	 Procedures to obtain medical information from DOL or the injured
              employees as often as necessary to assess potential return to regular, light, or
              limited duty; and
          • 	 Staying in touch with injured employees and taking steps to reemploy
              recovered or recovering employees as soon as the medical evidence shows
              that this is possible.

          We concluded, however, that TSA does not have an effective, comprehensive
          program, and the resources and tools necessary to manage its long-term cases.
          Our audit identified cases where TSA had not ensured that:

          • 	 Medical evidence properly supported the injury and continued
              compensation;
          • 	 Injured employees capable of alternative work had access to limited duty
              whenever feasible;
          • 	 Injured employees received and participated in opportunities for vocational
              rehabilitation;
          • 	 Third parties responsible for claimant injuries were identified and recovery
              of costs pursued;
          • 	 Suspected cases of fraud and abuse were properly referred for investigation;
              and
          • 	 Questionable claims were properly identified and challenged.



                Transportation Security Administration’s Management of its 

                     Federal Employees’ Compensation Act Program 


                                          Page 7
                            TSA has not made case management a high priority, as evident by the minimal
                            resources devoted to program management, both at TSA Headquarters and at
                            TSA airport operations:

                            • 	 TSA Headquarters should provide better oversight of airport-based
                                FECA programs. Headquarters personnel lack specific oversight authority
                                and adequate resources and tools to provide effective oversight over airport-
                                based FECA operations. TSA Headquarters lacks a central case
                                management system; has no management directives for its workers
                                compensation program; and has performed only a limited number of
                                management reviews of airport FECA operations (17 of 450 airports, as of
                                October 27, 2006). In addition, TSA Headquarters has not provided a
                                formal training program for TSA airport personnel who manage FECA
                                cases. TSA Headquarters personnel believe they have insufficient
                                management resources to perform a more active management and oversight
                                role over airport operations.

                            • 	 Airport personnel responsible for administering workers’ compensation
                                claims need to properly monitor their long-term cases. Airport personnel
                                reported competing priorities, were uncertain of their responsibilities, and
                                lacked sufficient training. Some airport workers’ compensation coordinators
                                encountered problems with DOL when trying to monitor their cases. All
                                five airports we visited had case files that were disorganized, incomplete, or
                                missing documentation to support the claimant’s recovery status, making
                                effective case management problematic.

                            Long-Term Case Review Results

                            The number of TSA employees on DOL’s periodic roll, i.e., receiving monthly
                            payments, has increased from 445 in June 2004 to 979 in June 2006. In
                            addition, using the agency’s 2006 chargeback report,2 we identified 1,065
                            claimants on the daily roll (receiving payments intended to cover a finite period
                            of wage loss) whose original date of injury was more than a year old. From this
                            data, we selected a sample of 116 long-term FECA cases comprising 94 periodic
                            roll cases and 22 daily roll cases (date of injury >1 year). As cases get older, the
                            likelihood of returning employees to work decreases, thereby increasing the
                            need for aggressive case management. Had TSA more aggressively managed
                            these cases, long-term costs could have been reduced.

                            Our review of 116 out of 2,044 long-term FECA cases disclosed problems with
                            documentation or oversight in 80% or 93 of 116 cases (some cases had more
                            than one deficiency), as discussed below and in Figure 1 on next page:

2
    July 1, 2005 through June 30, 2006

                                    Transportation Security Administration’s Management of its 

                                         Federal Employees’ Compensation Act Program 


                                                              Page 8
• 	 Claimant cases had outdated or incomplete medical documentation
    (56 cases).
• 	 Claimants were off work and on long-term compensation for up to 3 years
    even though medical evidence indicated that the claimants could have
    returned to limited duty (27 cases).
• 	 Claimants with permanent work restrictions either had not been referred to
    DOL’s vocational rehabilitation program, not referred in a timely manner, or
    not monitored for participation in the program (23 cases).
• 	 Claimant cases had a third party responsible for their injury, but the claimant
    did not identify or pursue the third party for recovery of costs (7 cases).
• 	 Claimants had potentially fraudulent claims that were not properly referred
    to TSA’s Office of Human Capital (3 cases).
• 	 Claimants had questionable claims involving preexisting conditions,
    unrelated illnesses, and suspicious injuries (8 cases).

Figure 1: Problems with Documentation and Oversight of TSA FECA
Long-Term Cases

                                                    Medical Documentation

                 3    8                             Limited Duty
             7

    23                                       56     Vocational Rehailitiation

                                                    3rd Party

                 27                                 Potential Fraud Referral

                                                    Questionable Claims



 Source: Office of Inspector General

Outdated or Incomplete Medical Documentation

Fifty-six of 116 claimants had outdated or incomplete medical documentation.
According to TSA’s guidance, the injured employee should provide medical
updates to TSA after every examination. Some cases had medical
documentation that has not been updated for up to 3 years. For example:

• 	 One claimant’s last medical report was dated July 8, 2003. The medical
    report indicated that the physician authorized a limited duty return to work.
    No evidence was present in the file to indicate whether the individual
    received a limited duty offer from TSA. The TSA workers’ compensation
    coordinator noted in the file that a second opinion examination was

         Transportation Security Administration’s Management of its 

              Federal Employees’ Compensation Act Program 


                                   Page 9
    scheduled for October 2006, but then was re-scheduled for November 2006
    when they discovered the claimant was in Europe. The claimant has
    received over $67,000 in compensation payments since the date the
    physician last authorized limited duty.
• 	 One claimant was injured on November 14, 2003. The file contained no
    medical evidence to support the injury. The claimant has received over
    $77,000 in compensation since November 14, 2003.
• 	 Another claimant’s last medical report in TSA files was dated
    August 25, 2004. The physician’s report cited that the claimant was
    undergoing physical therapy for back and neck pain. The claimant has
    received over $41,000 in compensation payments since the physician’s
    report.

Limited Duty Not Made Available When Appropriate

Twenty-seven of 116 claimants were out of work for up to three years even
though medical evidence indicated that the claimants could have returned to
limited duty assignments. If TSA had properly accommodated these injured
claimants, the agency could have saved up to $1.1 million in compensation
costs. For example:

• 	 One physician provided restrictions for the claimant’s release to limited duty
    after suffering a work-related hernia on May 16, 2003. No evidence was in
    the file that TSA offered the claimant a limited duty assignment to
    accommodate a return to work. Since the date the physician authorized
    limited duty, the claimant has received over $86,000 in compensation
    payments.
• 	 One claimant was cleared to return to work in a limited duty capacity on
    February 11, 2005. TSA had sent the claimant a limited duty offer dated
    April 7, 2005. The claimant rejected the offer and their attorney sent TSA a
    memorandum dated April 18, 2005, which cited non-compliance with the
    legal requirements of the FECA Procedures Manual due to a lack of medical
    restrictions, organizational location, and salary being included on the offer.
    TSA never sent a corrected limited duty offer and the individual has, to date,
    collected over $43,000 in compensation payments.

Vocational Rehabilitation Should be Monitored and Managed

Twenty-three of 116 claimants with permanent work restrictions either had not
been referred to DOL’s vocational rehabilitation program, not referred in a
timely manner, or not monitored for participation in the program. According to
Publication CA-810, Chapter 8-5, DOL will consider rehabilitation services for
placement if the agency cannot reemploy the claimant. Furthermore, a claimant


      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 10
who refuses to participate in a DOL rehabilitation program may have their
compensation reduced or terminated. For example:

• 	 Two different physicians determined that a claimant had permanent work
    restrictions. No evidence was in the file to show the claimant had been
    referred to a vocational rehabilitation program, even though two physicians
    cited permanent and stationary work restrictions 12 months prior. Since the
    September 6, 2005 second opinion, the claimant has received over $27,000
    in compensation payments.
• 	 One case file indicated that DOL had referred a claimant for vocational
    rehabilitation services on October 27, 2005, following a 2003 injury. The
    case file did not contain evidence that TSA followed up to ascertain whether
    DOL had been successful in its vocational rehabilitation and placement
    efforts. An airport workers’ compensation coordinator explained that the
    claimant was non-compliant with vocational rehabilitation requirements and
    was at home collecting compensation. TSA may have saved up to $15,000
    in compensation payments had TSA monitored this case more closely and
    requested DOL initiate termination proceedings against the noncompliant
    claimant.

Third-Party Liability Not Pursued

Seven claimant cases had a third-party responsible for their injury, but the
claimant did not identify or pursue the third-party for recovery of costs.
According to Publication CA-810, Chapter 4-1, Section E, DOL encourages
supervisors to investigate the third-party aspect of any claim and submit all
information gathered to DOL. DOL may ask the employee to seek damages
from that party.

TSA oversight influences whether DOL proceeds with third-party claims. TSA
can request that DOL issue letters to claimants to inform them of their
responsibilities in pursuing third-party claims. When claimants are
unresponsive in pursuit of third parties, TSA can request DOL terminate or
suspend benefits when appropriate. Examples of cases involving third-party
liability during our review include:

• 	 One claimant suffered a work-related back injury on May 26, 2003, when an
    airport contract employee drove a baggage cart into the claimant’s back and
    hip. While the claim form attributed the injury to a third-party, the claimant
    did not provide the name of the responsible party. No follow-up to the case
    was made either by the claimant or TSA.
• 	 One claimant suffered an ankle and knee injury after falling off a public
    transportation bus on October 3, 2003. This claim form did not attribute the
    injury to a third-party. While the claimant provided the name of a witness to

      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 11
   the incident, we noted no other information in the file to indicate that the
   claimant provided sufficient accident information, such as the driver’s name
   and bus number, to pursue a third-party claim against the public
   transportation company. As a result, there is no evidence in the claimant’s
   file to indicate any recovery of FECA costs expended by TSA related to the
   third-party issue.

Potential Fraud and Abuse Cases Not Referred To OHC

Airport personnel did not follow TSA guidance when referring potential fraud
and abuse cases for investigation. According to TSA guidance, airports should
refer cases to TSA Headquarters’ Office of Human Capital (OHC). OHC will
determine whether to refer the case for investigation to TSA’s Office of
Inspections. For example:

• 	 One claimant suffered a work-related injury resulting in a right wrist sprain
    on April 10, 2004. On November 15, 2005, a TSA employee alleged the
    claimant was committing workers’ compensation fraud because the claimant
    appeared on a website using their injured hand. The file did not contain
    evidence that the worker’s compensation coordinator evaluated the merits of
    the allegation or referred the allegation to OHC for further review. The
    claimant has received over $58,000 to date.

Questionable Claims Not Consistently Identified and Challenged

According to Publication CA-810, Chapter 4, Section 4-3, when a supervisor
questions the validity of a claim, the supervisor should investigate the
circumstances of the injury and report the results to DOL. Eight claimants were
identified as having questionable claims involving preexisting conditions,
unrelated illnesses, and suspicious injuries. For example:

• 	 One claimant suffered a heart attack on August 14, 2002, while working at a
    passenger checkpoint. The last medical report was dated September 2004,
    and consisted of a psychiatric evaluation stating that the claimant could not
    return to work due to a diagnosed psychiatric condition. The claimant was
    diagnosed with a preexisting post-traumatic disorder. The claimant has
    received over $75,000 in compensation payments since the date of the last
    medical update in the file.
• 	 One claimant suffered a work-related back muscle strain on January 20,
    2003. The claimant’s supervisor wrote on the form that the claimant was
    injured while exiting their personal car in the parking lot when coming in at
    the start of their shift. A referee medical examiner questioned the validity of
    the injury in a report dated April 26, 2004. The doctor stated, “…the
    claimant is either exaggerating their symptoms or actively trying to mislead

      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 12
   this examiner. I must therefore conclude that the claimant does, in fact,
   show no significant objective signs of disability.” The claimant has received
   over $88,000 in compensation payments to date.

Inadequate Case Management at TSA Headquarters and Airports

Problems identified for TSA’s long-term FECA cases are primarily the result of
the agency lacking an effective, comprehensive management and oversight
program, as well as the resources and tools necessary to manage its long-term
cases. OHC personnel notified us that they have been working on modifications
to their Nurse Case Management Program contract in order to address problems
with the backlog of long-term cases. TSA’s position was that improving the
timeliness of FECA claims processing was a higher priority than long-term case
management. Additionally, they acknowledged that resources assigned to the
program, both at headquarters and the airports, are not consistent with effective
FECA case management.

   TSA Headquarters is not providing adequate oversight of FECA programs

   TSA Headquarters (OHC) personnel are not providing adequate oversight of
   the FECA programs. OHC personnel were unable to evaluate whether the
   FECA program was being effectively managed at the airports because OHC
   does not have specific oversight authority over FSDs, has no central case
   management system, and has performed only a limited number of
   management reviews to determine the effectiveness of airport-based FECA
   programs (17 of 450 airports, as of October 27, 2006). OHC officials also
   said that their office lacks sufficient resources to administer such a large
   program, and that OHC has only five full-time employees, including the
   Director. Additionally, TSA Headquarters has not established Government
   Performance and Results Act goals or performance standards for the FECA
   program and no formal training plan to ensure airport personnel processing
   FECA claims receive adequate training.

   •    No Oversight Authority Over FSD Management of FECA programs:
        OHC officials stated that they do not have specific authority, contained
        in, for example, a TSA management directive, which assigns their office
        specific authority to provide direction and oversight to FSDs and airport-
        based FECA programs. OHC personnel said that they were strictly
        advisors, and have no authority over FSDs’ management of FECA
        programs. OHC personnel said that their mission is to provide guidance
        and clarification throughout TSA on FECA, its regulations, and
        procedures. FSDs are responsible for processing FECA claims,
        providing limited duty where appropriate, and ensuring the claimants
        promptly return to work when able. Therefore, the effectiveness of local

       Transportation Security Administration’s Management of its 

            Federal Employees’ Compensation Act Program 


                                Page 13
   FECA program management at each airport appears to be directly related
   to the relative priority placed upon it by each FSD.

• 	 No Centralized Case Management System: TSA does not have a
    centralized, automated case management system for airport personnel to
    use to manage their cases, or to provide TSA Headquarters with
    information necessary to efficiently monitor and manage its FECA
    program nationwide. Instead, OHC relies on the airports to track the
    status of their long-term cases. Some airports have developed their own
    local systems to track cases with each system having different variations.

• 	 Limited Number of Headquarters Management Reviews: TSA has
    only performed oversight reviews at 17 of its 450 airports, as of
    October 27, 2006. TSA personnel conduct optimization and safety
    reviews to improve the efficiency and effectiveness of airport screening
    operations and safety programs. OHC personnel, as part of a cross-
    functional TSA team, conduct reviews of FECA operations at airports.

• 	 Performance Standards Have Not Been Established: Headquarters
    has not established Government Performance and Results Act goals for
    the FECA program or performance standards for airport personnel
    administering the FECA program. The goals for the program could
    include reductions in associated program costs. The FECA program
    performance is also not an element in the performance standards for TSA
    workers’ compensation coordinators or FSDs.

• 	 No Formal Training Plan for Airport FECA Personnel: OHC has
    not developed a formal training plan for TSA employees processing
    FECA claims. While three of the five workers’ compensation
    coordinators we interviewed had previous FECA experience or had
    received advanced DOL training, none of them had received training on
    TSA’s workers’ compensation process. As a result, they primarily had
    to learn how to process and manage TSA FECA claims on their own.

Airport Workers’ Compensation Personnel Need to Closely Monitor Long-
term FECA Cases

Airport personnel responsible for administering workers’ compensation
claims are not properly monitoring their long-term cases. Airport personnel
claim other competing priorities, were uncertain of their responsibilities, and
lack sufficient training. In addition, workers’ compensation files were often
incomplete or missing entirely, making case management problematic, at
best, at some airports. As a result, case files were not adequately maintained


  Transportation Security Administration’s Management of its 

       Federal Employees’ Compensation Act Program 


                           Page 14
and the status of the cases often could only be obtained by interviewing the
workers’ compensation coordinator.

• 	 Competing Priorities: Airports have not assigned adequate, dedicated
    resources to properly monitor and manage employee injury claims and
    cases. Three airports we visited had reassigned screeners processing the
    FECA claims and managing cases, who, in at least one case, were only
    monitoring FECA cases part-time and still had screening responsibilities
    and other responsibilities such as processing payroll. In contrast, the
    remaining two airports had human resource specialists assigned to
    handle airport FECA programs, although FECA responsibilities
    represented only one of many assigned responsibilities. Human resource
    specialists assigned to monitor FECA cases at these airports commented
    that, in addition to FECA responsibilities, they had other responsibilities
    such as implementing TSA’s performance appraisal system and
    coordinating equal employment opportunity functions.

• 	 Needed Training and Guidance: Airport workers’ compensation
    coordinators were not always certain of their responsibilities in
    managing long-term FECA cases because they have not been properly
    trained. While three coordinators had previous experience or advanced
    DOL training, none of them had received training on TSA’s workers’
    compensation process. Additionally, the guidance provided by TSA’s
    OHC does not sufficiently address certain critical aspects of the FECA
    program. For example,

   • 	 Guidance does not define the specific roles and responsibilities for
       the workers’ compensation coordinators at the airports.
   • 	 Guidance to initiate a request for referral to vocational rehabilitation
       is unclear because it does not address whether a claimant should be
       terminated before being referred to DOL. We found cases where
       workers’ compensation coordinators contacted DOL before and after
       terminating the claimant.
   • 	 Guidance does not instruct the coordinators on how to pursue a third-
       party claim. Therefore, for the seven potential third-party cases
       reported above, we found no evidence that TSA monitored third-
       party cost recovery.

• 	 Partnership with DOL: Some airport workers’ compensation
    coordinators claimed to have encountered significant delays and
    obstacles when contacting DOL for information on aspects of specific
    long-term cases. Two coordinators claimed they were not obtaining
    adequate service from their local DOL office. For example, DOL was
    requesting second opinions; however, it could take months before TSA

  Transportation Security Administration’s Management of its 

       Federal Employees’ Compensation Act Program 


                           Page 15
               would ever receive the results. However, TSA coordinators were not
               summarizing their concerns and presenting them to their local DOL
               representative. Instead, TSA workers’ compensation coordinators were
               trying to address their problems on a case-by-case basis with DOL
               claims examiners.

          •    Disorganized, Incomplete, and Missing Case File Documentation:
               All five airports we visited had case files that were disorganized,
               incomplete, or missing documentation to support the claimant’s recovery
               status. According to Publication CA-810, agencies should establish a
               recordkeeping system that will enable the agency to maintain copies of
               claim forms, medical reports, correspondence with DOL, and other
               materials related to each compensation claim in an orderly fashion. For
               example:

               • 	 Five airports had files that included duplicate documents, documents
                   from other claims, or the documentation was not arranged in time
                   sequence. To fully understand the status of the case, we had to
                   chronologically organize the entire file before reviewing it.
               • 	 Five airports had files that were missing medical documentation,
                   TSA and DOL correspondence, or limited duty offers.
               • 	 Two airports were unable to locate case files on three claimants in
                   our sample.

      Conclusion

      TSA needs to improve the documentation and oversight of long-term cases.
      When cases are not aggressively managed, claimants are less likely to return to
      work although they may be medically able to return to full duty. Fewer
      available screeners, due to injuries, can lead to staffing shortages at some
      airports, closed screening lanes, and longer wait times for travelers being
      processed through TSA’s security checkpoints. As a result, lost workdays will
      accumulate and represent a significant cost to the taxpayers in both dollars and
      lost productivity. Unnecessary FECA-related costs reduce funds available for
      other TSA and Department of Homeland Security (DHS) missions and
      programs.

Recommendations:
We recommend that the Assistant Secretary of TSA:

              Recommendation 1:
              Direct all TSA locations to evaluate all long-term worker’s compensation
              cases, e.g., those that have been on worker’s compensation for at least one


              Transportation Security Administration’s Management of its 

                   Federal Employees’ Compensation Act Program 


                                       Page 16
year, to identify opportunities to return employees to work or refer
employees to vocational rehabilitation.

Recommendation 2:
Develop agency polices and procedures on the FECA program to include
roles and responsibilities for OHC and airport personnel to ensure, at a
minimum, that OHC and the airport workers’ compensation coordinators:
 • 	 Regularly review and verify agency case files for recent medical 

     evidence to substantiate the continuing disability of agency 

     claimants; 

 • 	 Document all actions and update medical status quarterly for each 

     injured worker in well-maintained case files; 

 • 	 Maintain quarterly contact with claimants, supervisors and care 

     providers of injured claimants; 

 • 	 Establish an on-going relationship with DOL personnel to discuss the
     status of the cases;
 • 	 Challenge questionable claims; and
 • 	 Actively identify, pursue and monitor the status of third-party and 

     fraud related claims. 


Recommendation 3:
Develop and implement a centralized, automated case management
system to track the status of the agency’s workers’ compensation cases.

Recommendation 4:
Determine whether additional resources are needed at OHC and airports to
manage and oversee the TSA FECA program.

Recommendation 5:
Provide sufficient training to managers and staff involved in the FECA
program at OHC and at the airports.

Recommendation 6:
Develop and implement agency FECA-related performance goals and
measures, including those related to program costs, and hold TSA officials
accountable for program performance by establishing performance
standards for workers’ compensation specialists and Federal Security
Directors.




Transportation Security Administration’s Management of its 

     Federal Employees’ Compensation Act Program 


                         Page 17
Management Comments and OIG Analysis

                 TSA generally concurred with the recommendations in the report and
                 stated that it found the recommendations helpful. However, TSA did not
                 concur with the OIG conclusion that the agency was not aggressively and
                 effectively managing long-term FECA cases, citing actions and programs
                 it has implemented to improve its management of both long-term FECA
                 cases as well as management of new injury cases.

                 The agency provided some examples of initiatives they have undertaken
                 since 2004 to improve management of its FECA program. For example,
                 the agency cited the outstanding results in the management of new injury
                 cases through use of their Nurse Case Management Program.

                 The agency also cited actions taken since the end of our fieldwork in
                 October 2006 to improve their management of long-term cases. In
                 November 2006, the agency’s Senior Leadership Team included injury
                 reduction as one of 17 crosscutting priorities for the next 18 months, and
                 established a cross-functional sub-group to review each TSA periodic roll
                 case from 2002 to present, and managing each case until it is resolved.
                 TSA has also included workplace injuries as a key measure in its
                 Management Objective Reports used to assess the effectiveness of FSDs,
                 and establishes specific performance targets to meet in a number of areas
                 including injury reduction and associated costs.

                 TSA’s response also noted the important contributions made by their
                 Office of Inspections in identifying potential instances of fraud or abuse,
                 and in investigating specific allegations related to injury claims. Finally,
                 TSA stated that it has developed and is using many methods and resources
                 to educate field personnel concerning its FECA-related responsibilities ,
                 including teleconferences, human resources conferences, emails, and
                 limited duty assignment templates.


OIG Evaluation

                 We agree that TSA has improved its management of new injury cases,
                 dramatically reducing both the number of lost workdays and continuation
                 of pay hours, while significantly increasing the timeliness in submitting
                 injury claim forms. We also agree that TSA has taken steps to improve its
                 management of long-term injury cases since completion of our fieldwork
                 in October 2006 and outlined further steps it plans to take in the future.
                 However, while we believe the actions TSA has taken or planned should

                 Transportation Security Administration’s Management of its 

                      Federal Employees’ Compensation Act Program 


                                          Page 18
generally address the deficiencies cited in this report, we consider the
majority of the recommendations open until the agency fully addresses
each recommendation, completes implementation of some steps their
response noted have already been taken, and implements planned, future
actions to improve FECA program management.


Management Comments to Recommendation 1:
Prior to the OIG review, TSA began negotiating a modification to the
existing Nurse Case Management Program contract to require the
contractor to evaluate all periodic roll cases within the claimant’s first
year of work absence. Based on OIG’s recommendation, TSA decided to
expand this requirement to conduct an audit of all periodic roll cases from
2002 to present.

OIG Evaluation: The audit of all cases on the periodic rolls since 2002
will ensure that injured employees return to work or are referred to
vocational rehabilitation. We consider this recommendation resolved.
However, it will remain open until we receive a copy of the contract
modification that includes the expanded review of periodic rolls from
2002 through the present and a report on at least the initial results of the
expanded review.

Management Comments to Recommendation 2:
TSA has provided airport personnel with DOL and agency-produced
guidance. TSA plans to document specific roles, responsibilities, and
appropriate procedures for workers’ compensation coordinators in a
management directive.

OIG Evaluation: The issuance of a management directive will provide
workers’ compensation coordinators a clearer understanding of their
specific roles and responsibilities. We consider this recommendation
resolved. However, it will remain open until we receive a copy of the
management directive.

Management Comments to Recommendation 3:
TSA is using DOL’s secure web-based system to e-file injury claims and
review case status, payments, and physician treatment and billing
information. The TSA program has a secure web-based system to house
medical documentation and share it among nurses and field coordinators

OIG Evaluation: TSA utilizes its own and DOL’s web-based systems to
manage the various aspects of its workers compensation cases. Although
these systems may have the capability to precisely report TSA’s efforts in

Transportation Security Administration’s Management of its 

     Federal Employees’ Compensation Act Program 


                         Page 19
returning injured claimants to work, Workers’ Compensation
Coordinators were not utilizing these systems to capture this information.
Airport personnel developed their own local systems to track cases with
each system having different variations. Furthermore, we found workers’
compensation files were often incomplete or missing entirely, making
case management problematic. A centralized tracking system could assist
TSA in reporting the status of its FECA cases in a consolidated manner,
while at the same time recording all case actions taken by its workers
compensation personnel to return a claimant to work. We consider this
recommendation unresolved and open pending actions taken by TSA HQ
to either develop guidelines that require airports to apply consistent
methods in recording case actions locally, or the development and
implementation of another centralized system to track the progress of
FECA cases and provide a consolidated source reporting of workers
compensation personnel actions.

Management Comments to Recommendation 4:
TSA has been actively conducting program reviews and providing case
management recommendations, and will review the adequacy of Office of
Human Capital and airport resources to determine if and where additional
resources may be needed.

OIG Evaluation: Thorough program reviews should provide a good
basis for determining whether additional resources are needed to manage
the TSA FECA programs. We consider this recommendation resolved.
However, it will remain open until we receive documentation of the
methodology used by TSA to assess workers’ compensation resource
levels at headquarters and in the field, and the results of this analysis.

Management Comments to Recommendation 5:
TSA has provided, and will continue to provide, training to field
personnel involved in the FECA program. This training is being delivered
in National Human Capital conferences, in Employee Relations training
programs, during on-site visits by TSA Injury Prevention Team members,
in Foundations of Leadership Training for supervisors and managers, and
during one-on-one sessions with human resource specialists. In addition,
TSA developed and provided the materials referenced in response to
Recommendation 2, and Nurse Case Management Program
representatives have visited every airport to speak with FECA field
coordinators to review problem cases and provide case management “best
practices.”

OIG Evaluation: The actions cited by TSA in conjunction with those
planned in response to Recommendation 2 should provide sufficient

Transportation Security Administration’s Management of its 

     Federal Employees’ Compensation Act Program 


                         Page 20
                 training and a clearer understanding of specific roles and responsibilities
                 to managers and staff involved in the FECA program. Airport workers’
                 compensation coordinators were not always certain of their
                 responsibilities in managing long-term FECA cases. While three
                 coordinators had previous experience or advanced DOL training, none of
                 them had received training on TSA’s workers’ compensation process at
                 the time of our review. We consider this recommendation resolved but
                 open until the intent of Recommendation 2 has been satisfied.

                 Management Comments to Recommendation 6:
                 TSA included FECA-related performance measures and goals for each
                 FSD in the Management Objective Report introduced in November 2006.

                 OIG Evaluation: Performance metrics for FSDs will help to ensure that
                 injured workers will be carefully monitored so that they can return to
                 work or are referred to vocational rehabilitation. We consider this
                 recommendation resolved. However, it will remain open until TSA
                 provides a copy of the performance measures and goals for FSDs in the
                 Management Objective Report.

TSA Needs to Monitor the Accuracy of Agency Chargeback Bills

           TSA does not properly verify its FECA-related chargeback bills from DOL.
           Supporting reports for the chargeback bills are not routinely distributed to the
           airports for their personnel to validate. This has occurred because TSA does not
           have policies or procedures to validate the chargeback reports. Between
           FYs 2004 and 2006, TSA incurred approximately $162 million in chargeback
           costs. According to personnel at one airport, that reviewed a chargeback report
           for the first time, just prior to our fieldwork, 7 employees were found to be on
           FECA-related compensation who had either returned to full duty or had been
           terminated for cause, yet had received more than $95,000 in compensation
           during FY 2006. According to Publication CA-810, Chapter 8-9, termination
           for cause occurs when an employee separated for misconduct and whose
           removal is wholly unconnected to the work-related injury, and therefore is not
           entitled to further compensation. Without reviewing the chargeback reports,
           TSA is unable to determine whether DOL is accurately billing the agency and is
           likely incurring inappropriate or excessive costs at other airports nationwide.

           DOL Chargeback Procedures

           The FECA program is financed by the Employees’ Compensation Fund, which
           consists of monies appropriated by Congress or contributed from operating
           revenues. The chargeback system is the mechanism by which the costs of


                 Transportation Security Administration’s Management of its 

                      Federal Employees’ Compensation Act Program 


                                          Page 21
compensation for work-related injuries and deaths are assigned to employing
agencies annually at the end of the fiscal accounting period. Every year, DOL
furnishes each agency with a chargeback bill of payments made from the fund
on account of injuries to its employees.

Additionally, each agency receives a quarterly report that lists all cases and costs
for which charges will appear on the yearly chargeback bill. This report can be
used to identify and correct errors before the agency is billed for them. DOL
provides guidance for an agency to follow when the agency believes that a case
appearing on its chargeback report does not belong on its account. An agency
has 1 year in which to request an adjustment to its yearly chargeback bill.

Agency personnel should monitor chargeback billings and arrange to charge
costs to the lowest organizational level practicable to make managers more
aware of costs. The purpose of providing the report to the lowest organizational
level practicable is because airport personnel are in the best position to verify
the costs for their local employees.

Procedures Needed at TSA to Validate Chargeback Reports

TSA does not have any policies or procedures to validate the chargeback
reports. Because there were no procedures, chargeback reports were not being
sent to the various airports for review and validation. Prior to the audit, OHC
did not validate the chargeback reports. Rather, TSA’s review was limited only
to separating FECA-related costs between Federal Air Marshal Service (FAMS)
employees and other TSA employees because the FAMS have a separate
appropriation.

OHC Initial Validation of Chargeback Report

OHC personnel began to analyze chargeback reports after we initiated our audit
in August 2006. OHC compared two separate personnel rosters, current and
separated TSA employees, to the 2006 chargeback report. This first-time
comparison revealed that TSA was billed for approximately $332,000 in
compensation and medical costs for 138 claimants who were not on either
personnel roster. This could indicate that TSA was billed for claimants that
were never TSA employees.

OHC also identified 1,073 payments totaling almost $683,000 that could be
potential duplicate payments. These payments had at least one other identical
payment amount with the same payment date and service date.




      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 22
Limited Airport Review of Chargeback Report

Prior to our audit, airports were not provided chargeback reports for validation.
However, after we discussed the chargeback process with OHC, the office
forwarded the reports to four of the five airports we visited. One airport’s
review found:

• 	 Four employees returned to full-duty in FY 2004 and FY 2005, yet received
    more than $53,000 in compensation costs in FY 2006.
• 	 Three employees, who were terminated for cause, received more than
    $42,000 in compensation costs in FY 2006.

Claimants Receiving Potential Overpayments

Our review of 116 long-term case files identified 8 claimants that may have
potentially received overpayments totaling over $8,000. For example:

• 	 One claimant who was on sick leave for a 2-week period also received a
    compensation overpayment of approximately $1,300 for the same period.
    The discrepancy was not corrected after being brought to DOL’s attention.
• 	 For another claimant, we identified an overpayment of approximately $900
    on May 6, 2005. No action had been taken to recover this overpayment as of
    our review.

Additionally, we were informed at one airport that a claimant, not included in
our sample, returned to work on August 21, 2005, and that TSA informed DOL
of this occurrence. However, the claimant continued to receive compensation
benefits until April 15, 2006, amounting to approximately $16,000. TSA has
not recovered this overpayment from the claimant.

Conclusion

The DOL chargeback report identifies the cost of TSA’s FECA claims. The
report gives the agency an opportunity to review all claimants receiving benefits,
verify that they are entitled to receive compensation, and validate the amount of
medical and compensation costs paid. Without reviewing the chargeback
reports, TSA is unable to determine whether DOL is accurately billing the
agency and is likely incurring inappropriate or excessive costs at airports not
reviewed during our fieldwork.




      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 23
     Recommendations:
     We recommend that the Assistant Secretary of TSA:

                 Recommendation 7:
                 Develop agency polices and procedures on TSA’s chargeback process to
                 include roles and responsibilities for OHC and airport personnel to ensure,
                 at a minimum, that:

                   •   OHC distributes the chargeback report to the airports timely;
                   •   Airports review and validate the accuracy of chargeback costs;
                   •   OHC oversees the airport chargeback review process; and
                   •   OHC pursues any discrepancies identified by the airports.


                   Recommendation 8:
                   Analyze the most recent chargeback report against the agency’s
                   personnel database to verify that claimants listed are actual TSA
                   employees, and did not have injury dates prior to their entry date with the
                   agency.

                   Recommendation 9:
                   Identify and recover all FECA-related costs DOL improperly charged to
                   the agency during the 2006 chargeback year.

Management Comments and OIG Analysis

                 Management Comments to Recommendation 7:
                 The agency will identify procedures appropriate for the chargeback
                 process and add them to the Workers’ Compensation Desk Guide.
                 Workers Compensation personnel will continue to review the quarterly
                 chargeback reports they receive from DOL, the DHS Chief Financial
                 Officer, or the TSA Office of Finance and Administration.

                 OIG Evaluation: The addition of chargeback procedures to the Workers’
                 Compensation Desk Guide should provide the necessary guidance to TSA
                 workers’ compensation coordinators. We consider this recommendation
                 resolved. However, it will remain open until we receive a copy of the
                 revised Workers’ Compensation Desk Guide.

                 Management Comments to Recommendation 8:
                 TSA analyzes the chargeback report each quarter at the headquarters
                 level, and compares the report with the agency’s Employment, Separation,
                 Disability Retirement, and Termination rosters. TSA will continue to

                  Transportation Security Administration’s Management of its 

                       Federal Employees’ Compensation Act Program 


                                           Page 24
                analyze the chargeback report and will forward the appropriate
                chargeback report information to the field for validation and reconciliation
                when the report arrives from DOL.

                OIG Evaluation: In addition to the above comparisons, TSA needs to
                ensure that the date of injury suffered by an employee was not prior to
                their date of entry with the agency. We consider this recommendation
                resolved. However, it will remain open until TSA provides the
                methodology utilized to verify that the injured employee was not injured
                prior to their entry date with the agency.

                Management Comments to Recommendation 9:
                TSA already completed an analysis of the FY 2006 chargeback report,
                identified improper charges, and recovered a credit of $275,000. TSA
                will continue to analyze chargeback reports every quarter and compare
                them to its Employment, Separation, Disability Retirement, and
                Termination rosters, looking for saving opportunities

                OIG Evaluation: We consider this recommendation closed.

TSA Can Better Link Its Safety and Health and FECA Programs

          TSA has established a safety and health program to address workplace
          conditions that contribute to employee injuries. TSA has reduced workplace
          injuries and illnesses and has increased awareness of safe and healthful
          workplace practices, but the agency may still be missing opportunities to reduce
          FECA-related costs by implementing additional measures to avoid common
          injuries at airports nationwide. To improve conditions that contribute to
          workplace injuries, TSA needs to deploy its Safety Information System to track
          the status of airport injury investigations and proposed corrective actions;
          develop and implement procedures to assign responsibility for ensuring airport
          safety deficiencies are corrected; and provide airports opportunities to share and
          implement best practices and incentive programs.

          According to Executive Order 12196 and the Occupational Safety and Health
          Act of 1970 (Public Law 91-596), agencies are required to provide a safe and
          healthful workplace for their employees. Within TSA, the Office of
          Occupational Safety, Health, and Environment is responsible for overseeing the
          establishment and maintenance of a comprehensive occupational safety and
          health program. At the airports, FSDs are responsible for planning,
          implementing, and evaluating a local occupational safety and health program.




                Transportation Security Administration’s Management of its 

                     Federal Employees’ Compensation Act Program 


                                         Page 25
Positive Safety and Health Actions

To increase awareness of the importance of safety and improve the safety and
health of TSA employee workplaces, TSA has:

• 	 Developed and fielded online safety training on topics that include:
    ergonomics, lifting techniques, stretching in the workplace, checkpoint
    safety, and checked baggage safety.
• 	 Developed and fielded online safety training for TSA supervisors and
    managers to help in additional safety responsibilities.
• 	 Conducted 82 Job Hazard Analyses in FY 2006 to identify and evaluate
    sources of hazards or potential hazards in the workplace environment,
    equipment design/configuration, and completing job tasks.
• 	 Implemented an Office of Management and Budget Scorecard to identify
    goals and track progress at the 58 airports that account for approximately
    80% of injuries.
• 	 Established cross-functional optimization and safety teams to visit airports
    and assist FSDs in identifying ways to improve the efficiency and
    effectiveness of their local screening operations and safety programs.
• 	 Deployed the TSA Safety Information System to ensure TSA investigates
    workers’ compensation claims from a safety point of view so that the agency
    can develop strategies to reduce injuries and illnesses.

Safety Information System Needs to be Fully Deployed

TSA needs to fully deploy and implement its Safety Information System
corrective action module. Both TSA Headquarters and airport personnel use the
Safety Information System to capture detailed information about injuries so that
resources are targeted to correct problem areas. Although the system is capable
of capturing investigation results and corrective actions, TSA is not yet using the
system to do so. Of the 50 short-term workers’ compensation claims we
reviewed, the system did not contain investigation reports for 8 claims from
3 airports. The system’s reports did not identify causal or contributing factors
for any of the 42 claims in the system, only reiterated what the injured employee
reported on their workers’ compensation claim. Additionally, the system did not
contain corrective actions taken, corrective actions recommended, or a
corrective action implementation date. Unless TSA records investigative results
and corrective actions in the system, the agency cannot ensure that the airports
have performed a thorough investigation and corrected any problems to avoid
future injuries.




      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 26
Safety and Health Evaluations Conducted by TSA

TSA has conducted or overseen the performance of numerous types of safety
and health reviews at airports nationwide. For example:

• 	 Job Hazard Analyses are one-time reviews conducted to identify hazards or
    potential hazards associated with TSA jobs and to develop solutions that will
    eliminate, nullify, or prevent such hazards or accident potential.
• 	 Annual Occupational Safety and Health inspections are conducted to meet
    requirements of Executive Order 12196.
• 	 Optimization and Safety Reviews are conducted to improve the efficiency
    and effectiveness of airport screening operations and safety programs at
    airports with higher rates of injuries.
• 	 The OMB Scorecard Initiative requires TSA to establish and report quarterly
    on performance targets to reduce screener injury rates. TSA uses
    information from its Safety Information System and input from Federal
    Security Directors to self-report the agency’s progress.

While these multiple reviews increased safety awareness at the airports, TSA
needs to develop, coordinate, and implement procedures to assign responsibility
for ensuring airports implement recommended corrective actions in a timely and
efficient manner. For example, job hazard analyses conducted in FY 2005
identified problems associated with inappropriate uses of electrical extension
cords, insufficient anti-fatigue mats, and damaged equipment as deficiencies.
FY 2006 Occupational Safety, Health, and Environment Airport Safety and
Health Inspection Reports, Office of Management and Budget Scorecard
Reports, and Optimization and Safety Reports continued to identify the same
problems. Although TSA said that the agency has plans to use its Safety
Information System to help monitor the status of correction actions, the absence
of a corrective action process places the effectiveness of the evaluation teams
into question.

TSA Needs to Establish Airport “Best Practices” and Safety Forum

TSA needs to establish an effective forum to share and promote best practices
and safety initiatives developed at the local airport level. While airports can be
unique in their architectural design, the type of screening equipment deployed,
and the various configurations of passenger and checked-baggage-screening
locations, common safety best practices can help TSA avoid some frequent
workplace injuries and increase morale of TSA screening officers. TSA also
needs to coordinate communication between headquarters and the airports to
promote safety and provide airports opportunities to implement best practices
and incentive programs. This forum could provide other airports examples of
safety initiatives used to increase screener safety awareness and reward

      Transportation Security Administration’s Management of its 

           Federal Employees’ Compensation Act Program 


                               Page 27
             screeners for performing work operations and activities in a safe and healthful
             manner.

             For example, one airport initiated a program to reward screeners for maintaining
             a safe workplace. The airport said that it used cash awards to motivate screeners
             to ensure the screeners performed their responsibilities in a safe and healthful
             manner, and provided monthly rewards to screening areas that had no reported
             injuries or lost time due to accidents. The airport contended that this program
             was minimal in cost to the airport, but increased employee morale and
             awareness of workplace safety. Additionally, other airport safety officers said
             that they often work independently to develop local safety initiatives and would
             benefit from a forum where safety officers from multiple airports could share
             ideas on how to encourage employee performance that demonstrates positive
             safety and health behavior, and reward employees for safe and healthful
             behaviors.

             Conclusion

             While TSA has implemented an ambitious and comprehensive safety and health
             program, the agency may still be missing opportunities to reduce FECA-related
             costs by implementing additional measures to avoid common injuries at airports
             nationwide. Promoting and rewarding safe and healthful behaviors may
             increase employee morale and help TSA avoid many injuries.

Recommendations:
We recommend the Assistant Secretary of TSA:

                    Recommendation 10:
                    Complete development and deployment of the Safety Information
                    System, and ensure Federal Security Directors are using the system to
                    record injury investigations, identify injury causes, and track status of
                    corrective actions.

                    Recommendation 11:
                    Establish and implement a coordinated process to document safety
                    deficiencies at TSA locations, assign responsibility for corrective
                    actions, and follow-up to ensure timely corrective actions are taken for
                    the multiple airport safety evaluations.

                    Recommendation 12:
                    Develop and implement a process or mechanism that enables TSA
                    Headquarters and airports to share safety best practices and incentive
                    programs.


                   Transportation Security Administration’s Management of its 

                        Federal Employees’ Compensation Act Program 


                                            Page 28
Management Comments and OIG Analysis

              Management Comments to Recommendation 10:
              The SIS has been developed and deployed to the airports and is being
              phased in incrementally to ensure that the capabilities provided in this tool
              are fully understood. SIS usage is monitored daily to ensure that FSDs are
              using the system to record injury investigations, identify injury causes,
              develop recommendations, and track the status of corrective actions.
              Furthermore, a training action plan has been approved and SIS user
              manuals and on-line training are being developed for the entire SIS
              application. On-Line learning resources, including interactive training
              segments, will be available before the end of the Fiscal Year.

              OIG Evaluation: The additional actions cited should strengthen TSA’s
              ability to ensure FSDs are utilizing the full capabilities of the SIS. We
              consider this recommendation resolved. However, it will remain open
              until TSA completes deployment of the SIS to the airports, issues the SIS
              user manuals and makes the related on-line training available to
              employees.

              Management Comments to Recommendation 11:
              TSA has deployed the Risk Management Assistant module to safety
              professionals in the field on April 13, 2007. This module documents
              safety deficiencies and findings, assigns responsibility for corrective
              actions, lists abatement strategies, and provides follow-up to ensure timely
              corrective action.

              OIG Evaluation: Deployment of the Risk Management Assistant
              module to the field should satisfy the intent of this recommendation. We
              consider this recommendation closed.

              Management Comments to Recommendation 12:
              TSA has developed a specific chapter in its Occupational Safety and
              Health (OSH) Field Manual addressing safety promotion and awards,
              which encourages FSDs at airports to develop programs for recognizing
              and rewarding superior OSH performance at their airports. In addition,
              headquarters is in the process of establishing criteria for recognizing
              exceptional collateral duty safety officers, who have developed strategies
              to reduce injury and illness rates, during the Office of Management and
              Budget Safety Initiative.

              Chapter 11 of the OSH Field Manual directs airports to performance self-
              assessments and performance evaluations describing OSH program
              accomplishments, program strengths and opportunities for improvement.

              Transportation Security Administration’s Management of its 

                   Federal Employees’ Compensation Act Program 


                                       Page 29
These evaluations will be forwarded annually to Headquarters, which will
evaluate them and publish best practices for all airports to review. In
addition, headquarters has launched an OSHE Safety Share Point, which
will be used to coordinate guidance and best practices with all airports.

OIG Evaluation: TSA has taken actions to address this recommendation.
We consider this recommendation resolved. However, it will remain open
until TSA provides the OIG a copy of the revised OSH Field Manual and
the established criteria for recognizing collateral duty officers during the
OMB Safety Initiative.




Transportation Security Administration’s Management of its 

     Federal Employees’ Compensation Act Program 


                         Page 30
Appendix A
Purpose, Scope, and Methodology



                  The overall objective of the audit was to determine whether TSA is effectively and
                  aggressively managing its FECA program to reduce workplace injuries, and minimize
                  lost workdays and FECA-related compensation costs by returning work-capable
                  employees to work as soon as possible.

                  The scope of our audit work was limited to TSA Headquarters and Category X
                  airports3 selected, because they had the highest FECA compensation costs calculated
                  using both the 2005 agency chargeback report and the authorized, full-time equivalent
                  employee report provided by TSA. According to Publication CA-810, the
                  chargeback report is the mechanism by which the costs of compensation for work-
                  related injuries and deaths are assigned by DOL to employing agencies at the end of
                  each fiscal accounting period, which runs from July to June for chargeback purposes.

                  The five airports we visited were: Denver International Airport, Los Angeles
                  International Airport, Newark-Liberty International Airport, O’Hare International
                  Airport, and Seattle-Tacoma International Airport.

                  To determine whether TSA is effectively managing its workers’ compensation
                  program, we reviewed applicable laws, regulations, policies, and guidance concerning
                  workers’ compensation. We interviewed personnel from OHC and the airports that
                  are responsible for the administration of the FECA program, and DOL Office of
                  Workers’ Compensation Program personnel to obtain an understanding of the federal
                  workers’ compensation program. Also, we reviewed prior Inspectors General audit
                  reports and Government Accountability Office reports on the federal workers’
                  compensation program.

                  Additionally, we selected a judgmental sample of claimant long-term cases,
                  comprised of periodic roll cases and daily roll cases with a date of injury over 1 year,
                  at both OHC and the five airports. At OHC, we selected 25 long-term cases based on
                  the highest compensation costs calculated for chargeback years 2005 and 2006. We
                  used the same methodology to select 20 long-term cases at four of the five airports.
                  At the remaining airport, we selected 20 long-term cases among those with the
                  highest combined medical and compensation costs calculated for chargeback years
                  2005 and 2006. OHC and airport personnel jointly managed nine of the cases in our
                  sample. Accordingly, we only counted the 9 cases once, resulting in a review of 116
                  total long-term FECA cases.




3
 TSA classifies commercial airports in the United States into one of five security risk categories (X, I, II, III, and IV)
based on various factors, such as the total number of takeoffs and landings annually, and other security considerations.
In general, category X airports have the highest number of passenger boarding and Category IV have the lowest.

                                Transportation Security Administration’s Management of its 

                                     Federal Employees’ Compensation Act Program 


                                                           Page 31
Appendix A
Purpose, Scope, and Methodology



             We reviewed long-term case files to determine whether medical evidence properly
             supported the claimant’s injury and continued compensation, limited duty was offered
             when the claimant was capable of alternative work; vocational rehabilitation was
             pursued when the claimant had permanent work restrictions; third-party costs
             recovery was pursued; suspected cases of fraud and abuse were properly referred for
             investigation, and questionable claims were investigated.

             To determine how TSA monitors the accuracy of the DOL chargeback report, we
             compared compensation payment data on the 116 long-term cases to TSA’s case files
             and interviewed OHC and airport workers’ compensation coordinators on the process
             they use to validate chargeback reports. We did not verify the accuracy of the DOL
             chargeback reports.

             To evaluate TSA’s safety and health program, we reviewed several initiatives TSA
             established to promote a safe work environment. These included TSA’s goals and
             performance results for the President’s Safety, Health, and Return to Employment
             initiative; online safety training; Job Hazard Analyses in FY 2005 and FY 2006;
             Office of Management and Budget Scorecards; and, the results of TSA’s
             Optimization and Safety Team reviews. Additionally, we met with TSA’s Office of
             Safety, Health, and Environment and obtained various safety and health reviews
             performed at each of the five airports we visited. We also toured passenger and
             baggage-handling operations at each of the five airports to observe work conditions
             and identify improvements TSA has made or needed to make for a safer work
             environment. We also selected 10 short-term claims at each of the five airports to
             evaluate whether injury investigations were recorded in the Safety Information
             System.

             We conducted fieldwork between August 2006 and November 2006 under the
             authority of the Inspector General Act of 1978, as amended, and according to
             generally accepted government auditing standards. The cooperation and courtesies
             extended to our audit team by TSA were appreciated.




                        Transportation Security Administration’s Management of its 

                             Federal Employees’ Compensation Act Program 


                                                 Page 32
Appendix B
Flowchart of TSA’s FECA Claim and Case Management Process




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 33
Appendix B
Flowchart of TSA’s FECA Claim and Case Management Process



Continued from preceding page




Source: Office of Inspector General and Transportation Security Administration




                               Transportation Security Administration’s Management of its 

                                    Federal Employees’ Compensation Act Program 


                                                        Page 34
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 35
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 36
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 37
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 38
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 39
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 40
Appendix C
Management Comments to Draft Report




                       Transportation Security Administration’s Management of its 

                            Federal Employees’ Compensation Act Program 


                                                Page 41
Appendix D
Major Contributors to this Report



                      Philadelphia Audit Office

                      Timothy Crowe, Director
                      Dennis Deely, Supervisory Auditor
                      Michael Talevi, Auditor-in-Charge
                      Patrick O’Malley, Auditor-in-Charge
                      Kevin Donahue, Auditor
                      Christine Haynes, Auditor
                      Katherine McPherson, Auditor
                      Dennis Kallusingh, Referencer




                          Transportation Security Administration’s Management of its 

                               Federal Employees’ Compensation Act Program 


                                                   Page 42
Appendix E
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      TSA Assistant Secretary
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief, Security Officer
                      Director, GAO/OIG Liaison Office
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate.




                          Transportation Security Administration’s Management of its 

                               Federal Employees’ Compensation Act Program 


                                                   Page 43
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
